             Millennium Challenge Corporation
             Reducing Poverty Through Growth



        OFFICE OF INSPECTOR GENERAL


Review of Millennium Challenge Corporation’s Progress in
Achieving Its Planned Organizational Structure and Beginning
Its Assistance Programs As of February 28, 2005

Report No. M-000-05-001-S

March 31, 2005




                        Washington, D.C.
     Millennium Challenge Corporation
     Reducing Poverty Through Growth


Office of Inspector General




March 31, 2005

MEMORANDUM

FOR:           Chief Executive Officer, Millennium Challenge Corporation,
               Paul V. Applegarth

FROM:          Assistant Inspector General for the Millennium Challenge
               Corporation, Henry L. Barrett /s/

SUBJECT:       Review of the Millennium Challenge Corporation’s Progress in
               Achieving Its Planned Organizational Structure and Beginning Its
               Assistance Programs As of February 28, 2005 (Report No. M-000-
               05-001-S)

This memorandum transmits our final report on the subject review. In finalizing the
report, we considered your comments on our draft report and have included them in
their entirety as Appendix II.

The report contains one recommendation for corrective action. Based on your
written comments to our draft report, we consider that final action has been taken on
this recommendation.

I appreciate the cooperation and courtesy extended to my staff during the review.
[This page intentionally left blank.]
Table of
Contents   Background ........................................................................................................5

           Review Objectives .............................................................................................6

           Review Findings ................................................................................................6

                      What progress has the Millennium Challenge
                      Corporation made in achieving its planned
                      organizational structure?........................................................................6

                      What is the status of the Millennium Challenge
                      Corporation’s compact development process? ......................................7

                      What progress has the Millennium Challenge
                      Corporation made in complying with the
                      Millennium Challenge Act of 2003 and other
                      applicable Federal laws and regulations? ..............................................9

                                 Applicability of Federal Procurement
                                 Rules to MCC Needs to be Determined...................................11

           Evaluation of Management Comments............................................................13

           Appendix I - Scope and Methodology .............................................................15

           Appendix II - Management Comments............................................................17




                                                                                                                          3
    [This page intentionally left blank.]




4
Background   On January 23, 2004, the Millennium Challenge Corporation (MCC) was
             established by the Millennium Challenge Act of 2003 (Act)1 to administer
             the Millennium Challenge Account (MCA). The MCC is a new government
             corporation designed to provide assistance to selected developing countries
             that rule justly, invest in their people and encourage economic freedom.

             Countries eligible to receive MCA assistance are selected from a group of
             candidate countries. Candidate countries for fiscal years 2004 and 2005
             were lower income countries (per capita income of less than $1415 in fiscal
             year 2004 and $1465 in fiscal year 2005) that were not otherwise prohibited
             from receiving assistance under U.S. law. Eligible countries are selected by
             MCC’s Board of Directors based on the candidate countries’ relative
             rankings against each other using objective indicators of the countries’ past
             and current policy performance in the areas of governing justly, investing in
             people, and encouraging economic freedom.

             On May 6, 2004, the MCC Board selected 16 countries as eligible to submit
             proposals for assistance under fiscal year 2004 funding. On November 8,
             2004, the MCC Board selected 16 eligible countries for fiscal year 2005
             funding which included 15 of the countries that were eligible to apply for
             fiscal year 2004 funding, with one additional country.

             In addition to the eligible countries, MCC has established a Threshold
             Program designed to assist countries that are on the “threshold” and
             committed to undertaking the reforms necessary to improve policy
             performance and eventually qualify for MCA assistance as an eligible
             country. Up to ten percent of available funding may be used for this
             program. The MCC Board selected 7 countries for fiscal year 2004 and 12
             countries for fiscal year 2005 (which included 6 countries from fiscal year
             2004) to participate in this program. 2

             For its initial year of operations, MCC received an appropriation of $994
             million and $1.488 billion for fiscal year 2005. For fiscal year 2006, the
             President’s budget has requested $3 billion for MCC.




             1
               The Millennium Challenge Act of 2003 is Part D, Title VI of Public Law 108-199—The
             Consolidated Appropriations Act of 2004.
             2
              MCC’s website (www.mcc.gov) identifies the eligible and Threshold Program countries
             for fiscal years 2004 and 2005.
                                                                                               5
Review       This review is a follow up of our August 2004 review, which we reported on
Objectives   in Report No. M-000-04-001-S dated September 30, 2004.3 As in the
             previous review, we directed our objectives to assess and report on the
             current status of the MCC in terms of achieving its planned organizational
             structure, developing its compact development process, and complying with
             the Millennium Challenge Act of 2003 and other applicable laws and
             regulations.

             Appendix I contains a discussion on the review’s scope and methodology.


 Review      What progress has the Millennium Challenge Corporation made in
 Findings    achieving its planned organizational structure?

             The Millennium Challenge Corporation (MCC) made significant progress in
             achieving its planned organizational structure. At the time of our review,
             MCC had reached about 55 percent of its planned staffing level of 200
             positions with 110 employees on board (95 direct hires, 3 personal service
             contractors, 8 institutional contractors and 4 detailees). MCC still plans a target
             full staffing level of 200 positions—176 positions that have already been
             programmed for specific offices and the remaining 24 positions currently
             being reserved for eventual allocation to the various offices as its staffing
             requirements become better known.

             The table below shows MCC’s staffing by office at the end of August 2004
             and February 2005, as well as its full staffing target for December 2005.

                              Table 1: MCC’s Staffing by Office Projected
                                       through December 2005
                                                            Staffing as    Staffing as      Full Staffing
                                                             of August    of February             Target
                                  Office                      31, 2004        28, 2005   December 2005
                 Chief Executive’s Office                             5              6                  8
                 General Counsel                                      6              7                 11
                 Administration and Finance                          14             22                 18
                 Country Relations                                   15             32                 65
                 Markets and Sectoral Assessments                     6             19                 33
                 Domestic Relations                                   5              7                 12
                 Monitoring and Evaluation                            3             12                 16
                 Development Policy                                   2              3                  7
                 International Relations                              1              2                  6
                 Reserved Positions for Future Allocation                                              24
                                  Totals                            57           110                 200



             3
              Review of the Millennium Challenge Corporation’s Progress in Achieving Its Planned
             Organizational Structure and Beginning Its Assistance Programs As of August 31, 2004,
             Report No. M-000-04-001-S, dated September 30, 2004.
6
To enhance its technical expertise in selected areas, MCC entered into
interagency agreements with other U.S. Government agencies and may enter
into more as the need arises. At the time of our review, MCC had entered or
planned to enter into interagency agreements with: (1) the Department of the
Treasury to provide resources in the area of fiscal accountability and
financial systems, (2) the Department of Agriculture to provide resources to
assist with agriculture projects and environmental issues, including tapping
into resources from land grant universities, and (3) the Army Corps of
Engineers to provide assistance on infrastructure projects.

MCC also plans to send country resident representatives overseas to provide
an on-the-ground presence to oversee activities in the compact countries. An
unspecified number of locally employed staff (LES)4 personal service
contractors will be hired to assist the representatives. The LES staff will be in
addition to the 200 U.S. positions it is anticipating by December 2005.

As MCC continues to build its staffing levels, one of the challenges it faces
is developing a diverse workforce that will meet its needs for both its
administrative operations and its overseas assistance programs. According
to one MCC official, MCC employees are coming from the international
development field, the private sector and the Federal government. In
creating such a diverse workforce, MCC has to ensure that those employees
not coming from a government background become familiar with Federal
government regulations and standards. MCC also recognizes that it will be
a challenge to monitor the activities in the field with its limited staff where
the risks have not been specifically defined. MCC will need to be very
rigorous in its monitoring efforts to protect MCC-financed programs from
fraud, waste and abuse.


What is the status of the Millennium Challenge Corporation’s compact
development process?

MCC has made progress in developing and negotiating compacts with several
eligible countries and has taken the initial steps in establishing its Threshold
Program. The status of these programs is described below.

Eligible Country Program

Although MCC had not signed a compact with any of its eligible countries
as of the end of February 2005, MCC officials indicated that they had made
considerable progress toward finalizing as many as five compacts in the next
few months. Equally important, MCC had established a foundation for the
future by substantially creating the procedures and documents it will use in
developing and negotiating compacts with its eligible countries. MCC

4
 Locally employed staff is the general term used for Foreign Service Nationals and locally
employed American citizens who are employed by a U.S.Government agency overseas.
                                                                                        7
    records indicate that by the end of February 2005, 15 of the 16 countries
    eligible for fiscal year 2004 funding had submitted at least an initial draft
    MCC program proposal and most of these countries have submitted more
    refined draft proposals with assistance from MCC.

    MCC continues to refine its procedures in developing compacts with the
    eligible countries and additional adjustments and changes can be expected
    as MCC gains more experience and a track record with the implementation
    of its first country programs. MCC has invested extensive time and
    resources in developing its “due diligence” process—the appraisal process
    where MCC supports the development of a country’s proposal and identifies
    potential fiscal and procurement agents and issues of concern to be
    addressed before signing a compact to ensure sound investment of U.S.
    funding. This effort involves not only MCC personnel but also contracted
    outside technical assistance when necessary. These efforts are documented
    within MCC’s “due diligence plan” for each country and summarized—with
    a detailed description of the country’s proposal—in an investment memo
    which must be approved by MCC’s “investment committee” comprised of
    MCC’s CEO and Vice Presidents.5

    MCC officials expected the first compact would be signed with Madagascar
    in April 2005 6 with the initial disbursements to be made within two months
    of compact signing. Depending on the completion of MCC’s due diligence
    efforts in the countries and approval by the Board, MCC estimates that up to
    an additional three or four compacts may be signed during the remainder of
    fiscal year 2005. MCC also anticipates notifying Congress that negotiations
    will begin with an additional four to five eligible countries during the
    remainder of fiscal year 2005.

    MCC officials report that the preparation and negotiation of the Madagascar
    compact has served as a prototype for future compacts and subsequent
    compacts are expected to proceed more quickly. The remaining country
    proposals are in various stages of development and it is difficult to project
    when a compact might be signed since progress is primarily dependent on
    the eligible countries. Some of these proposals are only rough initial drafts
    while others have received initial MCC approval and are being actively
    developed with substantial MCC assistance.

    Threshold Program

    In addition to progress in developing and negotiating compacts with eligible
    countries, MCC has moved forward in establishing its Threshold Program to
    assist selected countries that are committed to undertaking necessary
    5
      MCC did not have a completed due diligence plan at the time of our review. As of March
    21, 2005, we were informed that they had substantially completed its first due diligence
    plan (for Madagascar) but it was not finalized.
    6
      Subsequent to our review cutoff date, on March 14, 2005, MCC’s Board of Directors
    approved MCC’s first Millennium Challenge compact with the country of Madagascar.
8
reforms to improve policy performance so that they might eventually qualify
for assistance as an eligible country. The Act allows up to ten percent of
available funding to be used for this program and the MCC Board selected 7
countries in fiscal year 2004 and 12 countries in fiscal year 2005 (which
included 6 countries from fiscal year 2004) to participate in the program.

In October 2004, MCC signed a memorandum of agreement with the U.S.
Agency for International Development (USAID) to allocate up to $40
million for USAID to administer the program. MCC has posted guidance on
its website to assist Threshold Program countries in developing and
preparing concept papers—the first step toward possibly receiving MCC
funding. MCC and USAID personnel have worked closely in explaining
and promoting the program with officials of the selected countries. MCC
reports that concept papers were evaluated with close collaboration and
input from USAID, the Department of State, and other Federal agencies.

As of February 28, 2005, MCC had received concept papers from each of
the seven fiscal year 2004 Threshold Program countries. Subsequent to our
review cutoff date, MCC’s investment committee approved four of the
concept papers allowing those countries to proceed toward preparing
program plans for possible MCC approval and funding before the end of
fiscal year 2005. The other three countries were given an additional 60 days
to clarify and make necessary changes to their concept papers before they
might be approved.


What progress has the Millennium Challenge Corporation made in
complying with the Millennium Challenge Act of 2003 and other
applicable Federal laws and regulations?

During the latest six month period, the Millennium Challenge Corporation
(MCC) continued to make progress in complying with the provisions of the
Millennium Challenge Act of 2003 (Act) and continued to assess the
applicability of other Federal laws and regulations to its operations.
However, while MCC officials reported that the MCC has followed the
Federal Acquisition Regulation (FAR) since its inception, MCC recently
issued an internal memorandum stating that language in the Act constitutes
“character and necessity” 7 language per applicable legal precedents and that
such language exempts MCC from the general statutory and regulatory
provisions governing Federal procurement when developing its own
procurement policies and procedures. We question MCC’s rationale that
“character and necessity” language gives MCC the authority to deviate from
Federal procurement laws and regulations.
7
  “Character and necessity” language refers to a provision in a government corporation’s
authorizing legislation that is interpreted by GAO as providing the government corporation
fiscal autonomy. Fiscal automony allows government corporations to use its funds for
expenses otherwise unallowable by Federal agencies.

                                                                                        9
     Below we first discuss our review observations regarding the MCC’s
     compliance with the Act, and subsequently discuss its compliance with other
     laws and regulations.

     Compliance with the Act

     The Act has a number of authorities and requirements which instruct the
     MCC on how to organize itself, identify countries that are candidates for
     assistance, select countries eligible to submit assistance proposals, enter into
     agreements with the countries, administer assistance to the countries, as well
     as other provisions and requirements on reporting and coordination with
     U.S. Government entities.

     As reported in our prior review report, during its first eight months of
     operations, MCC had made progress in complying with the Act.

     During the latest six month period, MCC continued its progress in
     complying with the provisions in the Act. For example, as intended by the
     Act, MCC’s Board selected countries eligible to submit compact proposals
     under fiscal year 2005 funding and it selected countries eligible to submit
     proposals under MCC’s Threshold Program for fiscal years 2004 and 2005.
     Additionally, MCC made proper notifications to Congress on the selection
     of the eligible countries and on MCC’s intent to enter into compact
     negotiations with a number of those countries. MCC also notified Congress
     of its intent to allocate fiscal year 2004 funds to three U.S. Government
     agencies for assistance in carrying out its program, and it published
     information in the Federal Register as required.

     The above actions were in accordance with the requirements of the Act.

     Complying with other laws and regulations

     As reported in our prior review report, MCC officials identified a number of
     laws and regulations that they believed that MCC is wholly or partially
     exempt from because it is a government corporation. During this latest six
     month period, MCC wrote an internal memorandum concluding that it is not
     obligated in the future to follow the general statutory and regulatory
     provisions governing Federal procurement, including the Federal
     Acquisition Regulation. As explained below, we question MCC’s opinion
     and believe it would be prudent for MCC to obtain a second opinion on its
     position.




10
Applicability of Federal Procurement
Rules to MCC Needs to be Determined

In an internal memorandum, dated December 8, 2004, MCC’s Office of
General Counsel presented an opinion on the applicability of the Federal
procurement rules to MCC. The opinion states that Congress included
“character and necessity” language in the Act8 that provides MCC with
fiscal autonomy and permits it to exercise broad authority and discretion to
handle expenditures. Citing its interpretation of the Government
Accountability Office’s (GAO) Principles of Federal Appropriation Law,
the opinion states that the “character and necessity” language of the Act
permits MCC to prescribe the manner in which it will procure goods and
services, and that MCC is not obligated to follow the general statutory and
regulatory provisions governing Federal procurement, including the Federal
Acquisition Regulation (FAR). Further, the opinion stated, “This means that
as the MCC moves forward and establishes its own procurement policy, it
should refer to, and incorporate into its procurement policy, portions of the
Federal procurement statutory and regulatory scheme that is best suited to
the MCC.” This policy was addressing MCC’s options for future
procurement practices. MCC officials report that MCC has followed the
FAR since MCC’s inception.

Our interpretation of the same GAO Principles of Federal Appropriation
Law cited in MCC’s opinion is that “character and necessity” language is
intended to apply to laws of a fiscal nature and not to procurement laws and
regulations. GAO’s guidance specifically states that Federal procurement
laws and regulations are expressly applicable to wholly-owned government
corporations. Hence, there was some question whether MCC’s opinion
regarding MCC being exempt from the FAR and general procurement
statutes was soundly based.

We believe that it would be in MCC’s best interest to seek a “second
opinion” on MCC’s interpretation that the Act’s “character and necessity”
language exempts MCC from general statutory and regulatory provisions
governing Federal procurement, including the Federal Acquisition
Regulation. GAO officials suggested that the appropriate organizations
from which MCC might obtain an opinion of these matters might be the
Office of Management and Budget’s Office of Federal Procurement Policy
or the General Services Administration. By getting a second opinion on the
flexibilities that the Act provides to deviate from the FAR and general
procurement statutes, MCC will have a firmer basis upon which to build an
MCC-specific procurement policy. Hence, we are making the following
recommendation:

8
  MCC cited Section 614(a)(4) of the Act which states that the Corporation: “May
determine and prescribe the manner in which its obligations shall be incurred and its
expenses allowed and paid, including expenses for representation.”
                                                                                  11
     Recommendation No. 1 – We recommend that the
     Millennium Challenge Corporation (MCC)
     request the advice of appropriate authorities on
     the issue whether the “character and necessity”
     language in the Millennium Challenge Act
     exempts MCC from general statutory and
     regulatory    provisions   governing    Federal
     procurement.




12
Evaluation of   In its management comments, MCC requested that the report mention only
                the number of compacts MCC estimates may be signed during the remainder
Management      of fiscal year 2005, rather than identifying the countries. Additionally, it
Comments        requested that we add a further sentence that MCC expects to notify
                Congress of its intent to begin negotiations with several more countries
                during the remainder of fiscal year 2005. This final report includes the
                changes requested by MCC.

                Regarding Recommendation No. 1, MCC stated that the language in the
                Millennium Challenge Act (Act) is precisely that same language as is
                contained in the Federal Deposit Insurance Corporation (FDIC) statue which
                the Government Accountability Office (GAO) interpreted for FDIC to be
                the “functional equivalent” of “character and necessity” language.
                Therefore, MCC believed that the GAO has already answered the question
                whether the language in the Act constitutes “character and necessity”
                language. We reviewed the reference cited by MCC in its comments and
                agree that the language in the Act is nearly the same as the language for the
                FDIC as cited in the GAO reference. Hence, this final report does not
                reflect that there is a question that the Act includes “character and necessity”
                language.

                MCC indicated it will take under advisement our recommendation that it
                obtain a second opinion of whether “character and necessity” language
                permits MCC to deviate from general procurement statues. While its
                comments did not state that it would seek a second opinion regarding
                deviating from the Federal Acquisition Regulation (FAR), MCC stated that
                it intends to continue following the requirements of the FAR as it has in the
                past.

                Given that MCC intends to continue following the FAR and the fact that this
                review report puts MCC on notice of the OIG’s position that “character and
                necessity” language would not give authority to deviate from general
                procurement statues or the FAR, we consider MCC’s comments to be
                generally responsive to Recommendation No. 1 and consider that final
                action has been taken on the recommendation.

                MCC’s management comments are included in their entirety in Appendix II
                of this report.




                                                                                             13
     [This page intentionally left blank.]




14
                                                                                Appendix I

Scope
Scope and
              Scope
Methodology
              The Millennium Challenge Corporation’s Office of Inspector General
              conducted this review to gain an understanding of the progress that MCC has
              made in establishing its organizational structure, beginning its assistance
              program and assessing MCC’s compliance with applicable laws and
              regulations. Our review was not an audit and therefore was not designed to
              fully comply with generally accepted government auditing standards. The
              review was conducted at the MCC office located in Arlington, Virginia from
              January 31 through March 4, 2005.

              Methodology

              In planning and performing this review, we interviewed MCC management
              officials and examined documentation relating to MCC’s organization,
              staffing, budget, relevant laws and regulations and its progress in developing
              country compacts.

              To determine the progress MCC has made in achieving its planned
              organizational structure, we interviewed MCC officials to determine the
              current status of its organizational structure in terms of where they are now
              versus where they expect to be when fully staffed and operational, the
              anticipated staffing needs of each office, and hiring plans. We also
              reviewed documentation such as organizational charts and staffing plans.

              To determine the status of MCC’s compact development process, we
              interviewed key MCC personnel involved with proposal development,
              addressing due diligence issues and compact negotiation. We also
              interviewed key personnel who are developing MCC’s program to assist
              selected “threshold” countries. In addition, we reviewed:

                      •   MCC guidance to countries for developing proposals for MCC
                          assistance,

                      •   MCC criteria and methodology for determining candidate and
                          eligible countries,

                      •   summary reports of the status of proposal and compact
                          development for the 16 countries eligible for fiscal year 2004
                          funding, and

                      •   file documentation for selected eligible countries.

                                                                                         15
     To determine whether the MCC complied with the Millennium Challenge
     Act of 2003 (Act) and other applicable Federal laws and regulations, we met
     with and obtained documentation from MCC staff. We discussed with the
     MCC staff their interpretation of parts of the Act and whether the MCC
     complied with its terms. In reviewing compliance issues, we determined
     the minimum level of action necessary to meet the requirements of selected
     provisions of the Act and other Federal laws and regulations’ requirements
     but did not attempt to fully evaluate the thoroughness, effectiveness or
     impact of the actions MCC has taken.




16
                                                                                      Appendix II


Management
Comments


             Millennium Challenge Corporation
             Reducing Poverty Through Growth


Paul V. Applegarth
Chief Executive Officer



MEMO TO:       Henry L. Barrett, Assistant Inspector General, MCC
                                                                                     March 31, 2005
FROM:          Paul V. Applegarth /s/

SUBJECT:       Management Comments – Review of Millennium Challenge Corporation’s Progress
               in Achieving Its Planned Organizational Structure and Beginning Its Assistance
               Programs As of February 28, 2005 (Report No. M-000-5-00X-S)


Please find below the Millennium Challenge Corporation (MCC) management’s comments to the
Inspector General’s (IG) draft report of the review of MCC’s progress in achieving its organizational
structure and beginning its assistance programs. MCC management appreciates the opportunity to
comment on the draft report. We have reviewed the draft report, discussed it with the appropriate
members of MCC’s staff, and offer the following comments, which we trust you will consider as you
prepare the final report.

General Comment
MCC requests that you revise the second sentence in the second full paragraph on page 8 of the draft
report, as follows: “Depending on the completion of MCC’s due diligence efforts in the countries and
approval by the Board, MCC estimates that up to an additional 3 to 4 compacts may be signed during
the remainder of fiscal year 2005.” Also, MCC requests that immediately following the previous
sentence you add the following sentence: “MCC also anticipates notifying Congress that negotiations
will begin with an additional 4 to 5 eligible countries during the remainder of fiscal year 2005.”

Response to Recommendation 1
The report recommends that MCC request a second opinion as to whether the statutory language in
Section 614(a) (4) of the Millennium Challenge Act (the “Act”) constitutes “character” and
“necessity” authority as recognized by the Government Accountability Office (GAO) because



                                                                                                   17
                                                                                    Appendix II

Section 614(a)(4) of the Act does not contain the words “character” and “necessity.” The GAO
guidance makes it clear, however, that the language in Section 614(a)(4) does in fact provide MCC
“character and necessity” authority, and that it is not necessary for a government corporation’s
enabling legislation to use the words “character” and “necessity” in order to provide such
authority. In Principles of Federal Appropriations Law, Volume IV, Chapter 17, page 17-141, the
GAO noted that the FDIC’s statute, which contains precisely the same language as Section
614(a)(4) of the Act, is the “functional equivalent” of “character and necessity” language in other
statutes. Since we believe GAO precedent has already unambiguously answered this question,
MCC does not feel it is necessary to seek a second opinion.

We will take under advisement your recommendation to seek a second opinion on the application
of this “character and necessity” authority with respect to any particular statutory provisions MCC
may seek to depart from in the future. We note, however, that notwithstanding any potential
argument that provisions of the Act could be read to provide relief from the Federal Acquisition
Regulations (FAR), MCC in fact intends to continue following the requirements of the FAR in
conducting its procurement activities, as it has in the past.

If you have any questions about these comments please contact Jonathan O. Bloom, MCC’s Senior
Advisor to the CEO, at 202-521-3894 or bloomjo@mcc.gov. Thank you and your staff for
assisting us in this important endeavor and for providing MCC management the opportunity to
comment on the draft report.




18
